No. ______

In the Supreme Court of the United States
________
MELVIN BONNELL
Petitioner,
v.
STATE OF OHIO,
Respondent.
________
On Petition for Writ of Certiorari to
the Supreme Court of Ohio
________
APPLICATION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Melvin Bonnell, respectfully requests leave to file the attached
petition for writ of certiorari without payment of costs and to proceed in forma
pauperis.
Bonnell is indigent, and he has been found indigent and permitted to file in
forma pauperis in the Ohio Supreme Court and the Ohio Court of Appeals, as well as
the United States District Court for the Southern District of Ohio, and the United
States Court of Appeals for the Sixth Circuit in his previously filed case. Every court
since Bonnell was indicted in 1987 on charges that carried the potential for the death
penalty has permitted him to proceed in forma pauperis. Bonnell was granted
appointed counsel in the state court.
1

Bonnell’s declaration in support of this motion is attached hereto.
Respectfully submitted,
/s/ Kimberly S. Rigby
Kimberly S. Rigby [0078245]
Supervising Attorney
Death Penalty Department
Counsel of Record
/s/ Erika M. LaHote
Erika M. LaHote [0092256]
Assistant Public Defender
Office of the Ohio Public Defender
250 E. Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Kimberly.Rigby@opd.ohio.gov
Erika.LaHote@opd.ohio.gov
Counsel for Petitioner Bonnell

2

